        EVALUATION OF THE
      DEPARTMENT OF LABOR’S
       TELEWORK PROGRAM


 OFFICE OF THE ASSISTANT SECRETARY
FOR ADMINISTRATION AND MANAGEMENT




                     REPORT NO: 2E-50-598-0005
                    DATE ISSUED: September 26, 2002


                i
                                          TABLE OF CONTENTS


ACRONYMS & GLOSSARY...................................................................................................ii


EXECUTIVE SUMMARY ......................................................................................................iv


BACKGROUND .......................................................................................................................1


PURPOSE, SCOPE AND METHODOLOGY.........................................................................2


FINDINGS AND RECOMMENDATIONS .............................................................................4

          Finding A:           OASAM Has Developed and Implemented a Telework Program
                               for DOL, But Can Do More to Encourage Individual DOL
                               Agency Assessment of Telework ............................................................4

          Finding B:           OASAM Can Work More Closely With DOL
                               Agencies To Eliminate Identified Barriers to its Telework
                               Program Through Education and Marketing Efforts................................8

OASAM RESPONSE AND OIG CONCLUSIONS ...............................................................14

APPENDICES

          Appendix A: OPM Report on Telework as Reported on the
                      OPM Website – October 2001 ..............................................................15

          Appendix B:          DOL’s Response to the OPM Survey on
                               Establishing Telework Policies – April 2001.........................................18

          Appendix C: DOL’s Response to the OPM Survey on
                      Establishing Telework Policies – October 2001.....................................22

          Appendix D: Agency Response…………………………………………………...……25
.




                                                           i
                      ACRONYMS & GLOSSARY


ACRONYMS

AWS          -   Alternative Work Schedule

DOL          -   Department of Labor

GSA          -   General Services Administration

AFGE         -   American Federation of Government Employees

NCFLL        -   National Council of Field Labor Locals

OASAM        -   Office of the Assistant Secretary for Administration and
                 Management

OPM          -   Office of Personnel Management

PL           -   Public Law



GLOSSARY

Flexiplace       Flexible work place; indicating working one or more days at home
                 or at a work station other than the traditional office, often using a
                 computer and a modem to transmit data or information over
                 telephone lines back to the traditional work site which saves the
                 employee a more lengthy commute by reducing vehicle trips to a
                 main worksite. Flexiplace arrangements may be formal with
                 written agreements or informally episodic.

Local 12         Local 12 of the American Federation of Government Employees
                 AFL-CIO, represents the U.S. Department of Labor employees in
                 the Washington, D.C. metropolitan area.

Telecenter       A telecenter provides an alternative office closer to the customer or
                 worker’s home than their traditional office. The center may
                 contain cubicles, open workspaces, conference areas, and even
                 individual offices of varying sizes. Equipment and services may
                 include personal computers with software and modems for
                 connecting to the employee’s agency network and the Internet:
                 shared fax machines, printers, copiers, and other office equipment;


                                       ii
                 and telephone systems with voice mail, teleconferencing and video
                 conferencing capabilities.

Telecommute      Synonym for FLEXIPLACE

Telework         Synonym for FLEXIPLACE

Virtual Office   With a portable computer, pager, and cellular phone, as needed, a
                 mobile worker can work anywhere such as at home, while
                 traveling, or at a customer’s site.




                                      iii
                            EXECUTIVE SUMMARY

Section 359 of the 2001 Department of Transportation appropriations bill (Public Law
106-346) required “each Executive agency to establish a policy under which eligible
employees may participate in telework to the maximum extent possible without
diminished employee performance.” It further instructed each agency to ensure that
telework is offered to 25 percent of its workforce in 2001, and 25 percent each year
thereafter.

In 1997 and 1998, the Department of Labor (DOL), through the Office of the Assistant
Secretary for Administration and Management (OASAM), developed permanent
telework guidelines. OASAM continues to have general oversight responsibilities for
DOL’s telework program, but has decentralized implementation responsibilities to each
DOL agency.

Telework participation is slowly increasing in the federal government. However, there
are still many barriers that need to be addressed before telework is fully implemented. At
a visit to a telework center in January 2002, the Director of the Office of Personnel
Management (OPM) stated: “Quite frankly, it's a management imperative that we start
making better use of telework in the federal government if we are going to be competitive
employers in the 21st Century. "

This study focused on DOL’s compliance with the requirements of PL 106-346, Section
359, OASAM’s oversight of the Department’s telework program, and identifies areas
where improvements can be made.

FINDINGS AND RECOMMENDATIONS

OASAM developed and implemented a Department-wide telework program, but can do
more to encourage agencies to individually assess their implementation of telework
policies. In response to OPM surveys, OASAM identified barriers to the success of the
Department’s telework program, and to increased participation in the program. As the
oversight agency OASAM cannot eliminate barriers on its own, but can interface more
with individual DOL agencies to ensure that barriers to telework are examined and action
plans are designed to eliminate the barriers. Our findings and recommendations
identified below should help OASAM’s oversight of the Department’s telework program.

Finding A: OASAM Has Developed and Implemented a Telework Program for
           DOL, But Can Do More to Encourage Individual DOL Agency
           Assessment of Telework

OASAM negotiated permanent telecommuting programs with its union partners in 1997
and 1998. The programs provide that all bargaining and non-bargaining unit employees
throughout the Department may be considered for telecommuting in accordance with
stated eligibility criteria. OASAM reported DOL’s participation in telework in response


                                            iv
to two OPM surveys conducted in Fiscal Year (FY) 2001. Although agency-specific
formal agreements are tracked and reported, non-formal agreements are only reported on
an as needed basis. Additionally, agencies have not been asked to assess their
implementation of telework policies.

Finding B: OASAM Can Work More Closely With DOL Agencies To Eliminate
           Identified Barriers to its Telework Program Through Education and
           Marketing Efforts

While OASAM has taken the lead in identifying general barriers to telework, they can
work more actively with individual DOL agencies to identify strategies for eliminating
the barriers.

Recommendations:

We recommend that OASAM provide additional oversight to DOL agencies regarding
the Department’s telework program. Specifically, we recommend OASAM:

   1. Begin routine tracking and internal reporting of formal and informal telework
      participation when the automated People Time system is implemented. We
      suggest that OASAM generate both Departmental and individual agency reports,
      to be distributed to each agency and program head.

   2. Request that each DOL agency assess its effectiveness in promoting, considering,
      and granting telework requests. As needed, interface with agencies to assist them
      in developing and implementing strategies to promote the Department’s telework
      programs and eliminate identified barriers to the program.

  OASAM’s RESPONSE AND OIG’s CONCLUSIONS

OASAM responded, “on the whole, the report is fair and balanced. You have presented
the program from a positive viewpoint with suggestions that we find worthwhile.” The
agency agreed to implement the recommendations, and suggested two points of
clarification, which are incorporated in the report.

Based on OASAM’s response, we consider all recommendations resolved. The
recommendations will be closed pending OIG’s receipt of appropriate documentation
specified in the report.

The agency’s complete response is found in Appendix D.




                                           v
                                  BACKGROUND

Over the past several years Congress has increasingly sought to encourage more
widespread use of telework in the federal government. With a federal workforce of more
than 1.7 million employees, and an anticipated 281,000 eligible for retirement over the
next 4 years, it is increasingly evident that the future success of Government requires
finding creative ways to attract, manage and retain talented employees. Numerous
studies on teleworking have reported that it is beneficial to both employers and
employees for a wide variety of reasons including: improving quality of work and
increasing productivity, improving morale and reducing stress, saving hours of
commuting time, extending employment opportunities to people with disabilities, and
providing a valuable tool for recruitment of new employees as well as a retention
incentive for experienced employees to remain with the government.

During the last decade there was a wave of legislative interest in telework, including:

   •   A 1990 telecommunications bill authorized federal agencies to spend money for
       extra telephone lines, related equipment, and computer connection fees for federal
       teleworkers. This temporary authorization was re-enacted annually and made
       permanent in 1996.

   •   Public Law (PL) 105-277, Omnibus Appropriation Act, Title IV, Section 630,
       1999, states: “For fiscal year 1999 and each fiscal year thereafter, of the funds
       made available to each Executive agency for salaries and expenses, at a minimum,
       $50,000 shall be available only for the necessary expenses of the Executive
       agency to carry out a flexiplace work telecommuting program.”

   •   Also in 1999, the House Workforce and Education Committee held a series of
       hearings that looked at the reasons why telework was not more widely used by
       federal agencies.

   •   Finally, and most significantly, Section 359 of the 2001 Department of
       Transportation appropriations bill (PL 106-346) required that each Executive
       agency establish a telecommuting policy, and that the participation requirements of
       Section 359 be applied throughout the federal workforce.

In 1997 and 1998, as the policy agent for DOL, OASAM issued telework guidelines for all
employees. In 2000, the Secretary of Labor held a conference in New Orleans to support
and promote telework in both the private and public sectors. OASAM continues to have
oversight responsibilities for the Department’s telework program, but individual agencies
have responsibility for implementation of the program.




                                             1
                   PURPOSE, SCOPE AND METHODOLOGY

PURPOSE

The purpose of this evaluation was to examine the Telework Program in DOL. We
explored program implementation throughout the Department, barriers that may deter
participation, as well as best practices that encourage it.

SCOPE

The study focused on DOL’s compliance with the requirements of PL 106-346, Section
359, and OASAM’s oversight of the program.

METHODOLOGY

We conducted qualitative analysis through:

       •   Interviews with DOL Headquarters and Regional Telework Coordinators;
           selected managers from various agencies within the Department; and selected
           Telework coordinators from other federal agencies:
               DOL Interviews
               o 14 Headquarters coordinators
               o 8 Regional coordinators
               o 2 Occupational Safety & Health Administration managers
               o Benefits Review Board manager
               External Interviews
               o Department of Agriculture telework coordinator
               o Department of Education telework coordinator
               o Department of Energy telework coordinator
               o Bowie Telework Center manager, Southern Maryland Telework
                   Centers
               o Operations Manager, Southern Maryland Telework Centers
               o Office of Personnel Management, Office of Workforce Relations

       •   In addition, we conducted research and analysis on numerous reports related
           to telework, including:
               o Status of Telework in the Federal Government, OPM Survey,
                   October 1, 2001—focus on DOL information
               o Federal Agency Efforts to Promote & Use Telework Centers, OPM
                   Survey, December 1, 1999—DOL’s response
               o Federal Agency Efforts to Promote & Use Telework Centers, OPM
                   Survey, December 1, 2000—DOL’s response
               o Federal Agency Efforts to Promote & Use Telework Centers, OPM
                   Survey, December 1, 2001
               o Southern Maryland Telework Centers Operational Statistics
               o Number of Teleworkers by Agency, OPM Survey, October 30, 1998


                                             2
              o Department of Labor Employment, May 2002
              o The Washington Post, More Area Workers Commute 1 Per Car,
                May 31, 2002

This review was conducted according to the Quality Standards for Inspections published
by the President’s Council on Integrity and Efficiency.




                                          3
                     FINDINGS AND RECOMMENDATIONS

Finding A: OASAM Has Developed and Implemented a Telework Program for
           DOL, But Can Do More to Encourage Individual DOL Agency
           Assessment of Telework

OASAM negotiated permanent telecommuting programs with its union partners in 1997
and 1998. The programs provide that all bargaining and non-bargaining unit employees
throughout the Department may be considered for telecommuting in accordance with
stated eligibility criteria. OASAM reported DOL’s participation in telework in response
to two OPM surveys conducted in Fiscal Year (FY) 2001. Although agency-specific
formal agreements are tracked and reported, non-formal agreements are only reported on
an as needed basis. Additionally, agencies have not been asked to assess their
implementation of telework policies.

Identification of DOL Employees Eligible for Telework

In October 2001, OASAM responded to an OPM survey and reported that all 16,477 of its
employees were eligible for telework. Of that total, 471 were on formal telework
agreements, and 1,092 were utilizing episodic/ad hoc/situational telework, for a total of
1,563 (9.5%) of the DOL population. There were 15 other federal agencies with
participation rates greater than DOL’s, and 23 agencies were below. The average survey
participation rate was 4.22% (see Appendix A for a summary of responses). This OPM
survey was the second of two conducted by the agency (see Appendices B and C). The first
survey requested information only on “formal” telework arrangements in each agency.
OASAM took the lead and encouraged OPM to add “informal” telework participation to
future surveys, because formal arrangements normally account for a small number of
teleworking employees. Subsequently, in their October 2001 survey, OPM requested
information on both “formal” and “informal” telework participation.

There are three types of telework available to DOL employees:

   •   Formal telework occurs when an employee enters into a written Telework Work
       Agreement with their agency. They also complete a Home Office Self-Inspection
       Guideline and Checklist attesting to safe conditions in their home office. An
       agreement can include telework arrangements for medical purposes as well.

   •   Informal Telework occurs when the employee and supervisor agree, without
       written notice, that work can be accomplished at a site other than the office.

   •   Road Warriors perform their work at a variety of non-traditional sites, including:
       a business office or worksite, hotels, restaurants, or other worksites. Typical
       Road Warriors include inspectors, investigators and auditors.




                                            4
The information supplied by OASAM to OPM in response to their surveys did not
include the number of “Road Warriors”1 participating in telework. OASAM estimated
3,413 “Road Warriors” were teleworking in October 2001. OASAM sought to have
OPM include this category of employees as a separate count in their surveys. However,
in interviews with OPM we learned they do not plan to request such information from
agencies, and suggested that these employees be included in the “informal” telework
count, when appropriate. OPM’s current stance on this group of employees is that they
may now be included as ad hoc teleworkers only in those circumstances when these
workers file their reports from a site other than their official office. It is worth noting that
the International Telework Association and Council and some industry leaders classify
these types of employees as teleworkers.

In February 2001, OPM issued guidance to heads of executive agencies directing them to
establish eligibility criteria and to assess positions available for telework. The
memorandum stated that:

         “…many of you already have telework policies, but this does not necessarily
         mean you are in compliance with the new law. The purpose of the law is to
         require that each agency take a fresh look at the barriers that currently inhibit the
         use of this flexibility, act to remove them and increase actual participation. The
         law recognizes that not all positions are appropriate for telework; therefore, each
         agency must identify positions that are appropriate in a manner that focuses on
         broad objective criteria. Once an agency has established eligibility criteria, subject
         to any applicable agency policies or bargaining obligations, employees who meet
         them and want to participate must be allowed that opportunity if they are
         satisfactory performers.”

During our evaluation OASAM explained that all DOL employees continue to be eligible
for telework. In determining this eligibility, OASAM examined broad criteria and
fulfillment of the mission of DOL, rather than categorizing eligibility through specific job
classifications. They stress that each request for telework should be an individual
assessment between the employee and the supervisor. When considering telework
requests, supervisors should consider aspects such as those listed below, which are
contained in DOL’s handbooks on telework:

    1) Whether the work can be performed at the proposed site and whether the
       arrangement would be consistent with the mission of the agency;
    2) Costs of such arrangements;
    3) Existing performance, conduct, or leave restriction situations;
    4) Technology requirements; and
    5) Office coverage, access to the customer, team involvement, and access
        to the supervisor.

1
  Although Road Warriors perform many of their duties away from the defined office, they usually return to
the office to file their reports and do other work. In these cases they are not counted as teleworkers.
However, if they write their reports from a site other than their office, they are by definition considered part
of the telework force.


                                                       5
Since it’s initial assessment of eligibility, OASAM has not changed its position that all
DOL positions are eligible for telework. Therefore, all DOL employees remain eligible
for some form of telework, based on individual assessment of each request by DOL
agency supervisors. This strategy allows for the broadest participation in telework, and
allows all employees in DOL to be considered for some form of telework experience.

Tracking of Telework Participation

OPM surveyed all executive branch agencies in order to report to Congress on the status
of telework in the federal government2. DOL’s telework coordinator (in OASAM)
responded to OPM’s survey requests regarding telework participation. Analysis of
OASAM’s April response reveals that 6.9% of DOL employees were on some form of
telework at that time, while 9.5% were on telework as of the October 2001 period.

Through interviews with DOL headquarters and agency telework coordinators we learned
that DOL does not have an accurate system for routinely capturing all telework-related
information, and such information is accrued only upon request from OPM. OASAM
informed us however, that when the new electronic time and attendance system (People
Time) is implemented, the system will allow employees to input use of telework in a
designated reporting field. While People Time does not allow for differentiation of the
various types of DOL telework (i.e., formal, episodic, road warrior), OASAM reports that
they expect to have the ability to calculate accurate figures for both formal and
episodic/informal telework.

Oversight Responsibilities

While OASAM is DOL’s agent for developing telework policy and issuing guidance to
agencies, DOL agencies have telework coordinators at headquarters and regional or field
locations. These 24 coordinators have assigned responsibility for relaying and
disseminating telework information within their respective agencies and are the point of
contact when the Department telework coordinator needs information to compile reports.
When such information is requested, coordinators tally the number of formal agreements
and contact supervisors to determine: (a) the number of times informal telework
occurred in the specified time period, (b) the job classification of field workers, and
(c) the number of times reports were filed from job sites away from the office.

We also found that these agency coordinators can work more closely with their agency
heads, managers and supervisors who make the day-to-day assessments in response to

2
  The surveys asked agencies to provide data on the number of teleworking and telework eligible
employees, agency policy development, barriers in implementing telework, and steps being taken to
overcome those barriers and increase the number of teleworkers. Although the initial survey explored
formal and informal telework programs, OPM refined future surveys to collect additional information
regarding episodic, medical and other categories of informal teleworking.



                                                    6
telework requests from employees, in order to educate employees on the benefits of
telework in DOL, to eliminate barriers to the program, and to help market the program.

OASAM could encourage individual agencies to promote telework with posters and other
advertising methods, through agency-sponsored brown bag meetings, and through
Spotlight features on Labor Net.

DOL Telework at Telework Centers

In the 1999 Treasury, Postal Service, and General Government appropriations bill,
Congress authorized federal telework centers. The 1999 Conference Report
accompanying Public Law 105-277 required agencies to make at least $50,000 available
annually to pay for telework at the centers.

We examined DOL’s use of telework centers through interviews and a review of OPM
surveys. In November 2001, OPM surveyed3 executive agencies complying with Public
Law 105-277 §630(a) to rate their experience as: very positive, satisfactory or very
negative. If they did not use the work center, they were asked for an explanation. The
survey was distributed to 20 agencies, including DOL, and 19 responded. Eight agencies
rated their experience as very positive, two rated the experience as satisfactory, nine
agencies responded but did not answer the question, and one did not respond.

Non-users were asked for their reasons and 55% of survey respondents cited cost as the
main reason for not using telework centers to a greater extent. Three agencies
specifically identified employee inconvenience as a reason for not using the centers,
while six agencies cited lack of employee interest. In almost all cases, teleworking
employees preferred to work from home instead of a remote location. Only DOL
identified the quality of equipment as a reason for not using telework centers. Review of
the surveys revealed that one DOL employee used a telework center for almost two
months in FY 2000, over the three-year period surveyed. In our interviews, only one
person stated they would opt to use a telework center, preferring to separate work and
home life, while all other interviewees stated they would prefer working at home.

In March 2002, GSA made an offer to allow federal employees use of telework centers
for 60 days at no cost in an effort to generate more interest in telework. According to
GSA statistics, as of June 27, 2002, 130 federal employees from the Agriculture,
Commerce, Defense, Education, Health and Human Services, Transportation and
Treasury departments, the Nuclear Regulatory Commission and GSA, all took advantage
of the free trial offer.4 There were no participants from DOL despite several efforts to
encourage trial testing by employees. The Department coordinator sent electronic
mailings to telework coordinators in headquarters and the regions advertising the free use
of telecenters. However, the general consensus was participants preferred to telework at
home.

3
  US Office of Personnel Management, Federal Agency Efforts to Promote and Use Telework Centers,
FY 1999 – 2001.
4
  GovExec.com, Free Telework Trial Period Attracts Feds, July 25, 2002.


                                                 7
Finding B: OASAM Can Work More Closely With DOL Agencies To Eliminate
           Identified Barriers to its Telework Program Through Education and
           Marketing Efforts

While OASAM has taken the lead in identifying general barriers to telework, they can
work more actively with individual DOL agencies to identify strategies for eliminating
the barriers.

Barriers to Telework in DOL—Identified by OASAM

In its April 2001 survey response to OPM (Appendix B), OASAM identified the
following problems/ barriers associated with increasing the numbers of telecommuters in
DOL:

    •    Program funding:
         --As the number of teleworkers increases, agencies anticipate additional costs5.
         --Computer equipment and support provide additional challenges associated with
           costs as well as concerns in providing technical support/assistance to remote
           workers6.
    •    General Services Administration (GSA) regulations on the disposition of used
         personal computers are a disincentive to agencies that might wish to convey
         surplus computers to employees for use at alternate work sites.
    •    Major upgrades to communication technology – there must be a greater capacity
         for real-time access to data and easy transfer of information so that there is minimal
         to no impact on the work flow stemming from where the work is performed.
    •    Employee resistance:
         --Employees who prefer the office structure to help stay focused on their work.
         --Employees who feel they miss important information about work by not being
            in the office.
         --Employees unable to work independently.
    •    Office coverage (telephones, customer service).
    •    Difficulty in planning meetings to include flexiplace participant on conference
         calls.

5 Specifically mentioned were: (a) space rental charges where telecenters are used; (b) purchase of non-
ADP equipment (fax machines, additional telephone lines); (c) long distance charges where credit cards are
used rather than government telephone lines; (d) maintaining two workstations (1) official duty stations and
(2) alternate work site (since most teleworkers work 1 or 2 days per week at an alternate work site).

6 Specifically mentioned were: (a) purchase of a computer for use at two work sites (1) official duty
station and (2) alternate work site (long term goal to replace desktop computers with laptops requires a
major outlay of money to rewire and reconfigure offices, and for computer purchases); (b) expansions for
hardware and software licensing is necessary to allow for additional remote access; (c) technical
assistance—employees must have the capability to be on-line and on the telephone simultaneously since
issues and problems will need to be “talked” through; (d) employee training on basic troubleshooting,
especially hardware issues since IT staff cannot make house calls; (e) security procedures implemented to
ensure data security.


                                                     8
   •   Resistance on the part of some supervisors and managers:
       --Lack of understanding of program;
       --Lack of funding to fully support teleworkers;
       --Lack of training.

With the addition of the barrier of negative management attitude toward telework, which
was identified by OPM, we agree with the barriers to telework identified by OASAM.

Actions Taken by DOL to Overcome Barriers—Identified by OASAM

In its October 2001 survey (Appendix C), OPM requested that agencies identify actions
taken to overcome the barriers that were identified in the April 2001 survey. OASAM’s
response to this request was:

   •   Increase training of supervisors.
   •   Increase communication between supervisors and employees.
   •   Increase funding for government computers and equipment, where feasible.

We requested documentation of these identified actions, and learned that: (1) OASAM
did not conduct training because they were working with OPM to develop web-based
training. OPM recently informed us that this training is temporarily on hold, and that
each Department should continue with internal training until they hear otherwise; and
(2) OASAM will continue to encourage greater communication between supervisors and
employees, and greater participation in the Department’s telework program.

We agree with the actions identified by OASAM to overcome barriers to telework, but
OASAM could work more closely with DOL agencies to eliminate the barriers. OASAM
did take several proactive measures to market telework, such as: a Transportation Fair
held on June 16, 1999, which emphasized alternate transportation modes and teleworking
options; dissemination of worklife brochures featuring telework; posters highlighting
telework were distributed to telework agency coordinators; and “brown-bag” lunches
were held in response to requests from individual agencies. OASAM should request
agencies to identify additional barriers that may be unique to their agency, and encourage
agencies to find workable solutions to eliminate the barriers.

Actions Taken to Increase Telework Participants—Identified by OASAM

OPM requested that each agency identify the actions taken to increase telework
participants between April and October 2001. OASAM identified the following actions
taken by DOL to increase telework participation:

   •   Increase marketing of program.
   •   Development of Telework web site for all DOL employees.
   •   Increase training of supervisors.
   •   Refine information technology (data base access and reporting systems).
   •   Research ways to address computer security issues.


                                            9
We found that OASAM: (1) took several actions to market the Department’s telework
program, including the Transportation Fair, development of posters, and sponsoring
information sessions upon request; (2) added some information to the existing OASAM
web site on “Flexiplace”; (3) did not conduct training of supervisors to encourage
increased telework participation because they were anticipating a web-based training
format from OPM; (4) has access to data base information but has not developed or
implemented reporting systems to capture all aspects of telework. However, they expect
to resolve tracking issues through People Time implementation; and (5) does not feel it is
responsible for researching ways to address computer security issues, but rather each
agency needs to address this issue individually.

We agree with the actions to increase telework participation identified by OASAM, but
suggest that OASAM encourage each DOL agency to increase participation in telework
when possible.

Training

Lack of current training on telework issues was a concern to many interviewees.
Currently, DOL does not provide training to employees or supervisors on telework issues.
Of 22 interviews with DOL headquarters and regional coordinators, 12 stressed a need
for managerial training relating to the telework program. Also, 16 individuals said
managers needed to be educated and/or obtain some practical experience with the
telework program so they would be less apprehensive about employee participation. In
interviews with telework coordinators from other Federal agencies, we learned their list
of “best practices” all include training for both managers and employees so all would
know what to expect from the other in terms of communication, work planning,
emergencies and production. One agency tried pilot programs to encourage participation
and made it mandatory for managers to telework one day per month, at a minimum.
Early in the telework program, DOL did provide introductory information, and from
March through August 2000, general training for supervisors and employees was
provided.

Figure 1 reflects comments from our interviews with DOL telework coordinators. Most
of the comments were management-related concerns: 37% felt promotion by
management would contribute to program success; 21% advocated educating managers
about telework; and 15% recommended training for supervisors. Nine percent of the
comments reflected contentment with the existing DOL telework program, while 18%
thought more technical support would enhance the program.




                                            10
                            Factors Contributing to Program Success


                             Contributing to Program Success


                                                        CONTENT
                              PROMOTE                     9% EDUCATE
                               BY MGT
                                37%                                21%


                                         SUPV                 TECH
                                       TRAINING              SUPPORT
                                         15%                   18%
                   .
                                             FIGURE 1

Eligibility versus Participation

As explained by OPM in its February 2001 guidance to executive agencies, the purpose
of Public Law 106-346, Section 359, is to require that each agency take a fresh look at
the barriers that currently inhibit the use of telework, act to remove them, and increase
actual participation in the program.

While DOL has offered eligibility to 100% of its employees in agreement with its union
partners, many agencies have not made aggressive attempts to eliminate barriers to
increase telework participation. The last survey of DOL telework participation was 9.5%
in October 2001. This was up 2.6% from the April 2001 survey. More recent
information is not available. The 9.5% represented 471 employees on regularly
scheduled telework agreements, and 1,092 participating in episodic/ad hoc/situational
arrangements from a total of 16,477 eligible employees. No data was maintained by
OASAM on how many telework days were actually worked during the episodic telework.

OPM states they are working to change the largely negative attitude management has
regarding Telework. Our interviews reflect this attitude is impeding participation in
many agencies within the Department. Total telework participation in the federal
government is currently at 74,487, or 14.28% of the eligible workforce.7

Marketing Telework

OPM is partnering with the GSA to promote telework for federal employees. They have
extensive website information posted on the subject at http://www.telework.gov/index.htm,
and encourage widespread use of telework for employees. The current Director of OPM is
quoted on the OPM “Work/Life Programs” home page as saying, “I’d like to say to federal
managers, in case you haven’t gotten the message, telework is here to stay … It’s not just a
perk or a special privilege, it’s an opportunity to increase employee morale and increase
7
    Status of Telework in the Federal Government, OPM Survey, October 1, 2001.


                                                   11
the attractiveness of working for the Federal government.” The following is a
compendium of ideas from a variety of sources to encourage and market telework
participation:

      •   Telework helps recruit and retain good employees without having to rely on
          location as a factor.
      •   Surveys of federal workers show that telework and flexible hours appeal to them
          and may reduce employee turnover. That means improved quality of work and
          lower human resource demands for retraining and replacing personnel.
      •   The effort to change federal managers’ thinking about telework is worthwhile for
          reasons beyond improving the quality of life of government workers, addressing
          traffic gridlock and improving air quality in the region. The government often
          functions as a role model for private businesses and sets the stage for the rest of
          American industry8.
      •   Since the September 11th terrorist attacks, the workforce paradigm has changed
          dramatically. Federal employees have become aware of the need to establish off
          site locations to be able to continue the government’s work, especially through a
          secure e-mail system. A telework infrastructure should be in place in the event
          federal agencies need to disperse employees and decentralize operations because
          of security concerns.
      •   Accommodations of persons with disabilities can often be made easier through
          telework arrangements. In August 2001, the OPM director said, “In a recent
          speech about Americans with disabilities, the President said, “… the greatest
          challenges are often not in the job itself, but in the distance between your job and
          your home.” Extending employment opportunities to people with disabilities is
          one of many reasons for supporting teleworking.”

          Telework for persons with disabilities was also addressed by DOL in their
          May 9, 2002, “Report to the President on Executive Order 13217”, the New
          Freedom Initiative. The initiative, signed by President Bush on February 1, 2001,
          is a comprehensive plan that represents an important step in working to ensure
          that all Americans have the opportunity to learn and develop skills, engage in
          productive work, make choices about their daily lives and participate fully in
          community life. In its May 2002, “Summary of Proposed Department of Labor
          Actions”, the agency highlighted the need to “increase the number of people with
          disabilities in the federal workforce,” by taking the following actions:

                  a. Work across DOL agencies to facilitate access to qualified applicants
                     with disabilities, including applicants with significant disabilities.
                  b. Ensure provision of reasonable accommodations and assistive services
                     to people with significant disabilities in the DOL.
                  c. Increase the participation of young adults with significant disabilities,
                     including those transitioning to the community from institutions, in
                     internship and mentoring programs.

8
    The New York Times, Telework’s Big Experiment, May 9, 2001.


                                                  12
              d. Collaborate with DOL agencies to increase telework awareness and
                 opportunities for federal employees with disabilities and conduct a
                 research effort to learn more about telework's potential impact on
                 workers, employers and the American workforce.

CONCLUSION

We recognize and agree that telework does not and cannot work for all DOL employees
in all situations. However, as the agency responsible for oversight of the telework
program, OASAM should continue to encourage DOL agencies to eliminate barriers and
increase participation in the telework program when feasible.

RECOMMENDATIONS

We recommend that OASAM provide additional oversight to DOL agencies regarding
the Department’s telework program. Specifically, we recommend OASAM:

   1. Begin routine tracking and internal reporting of formal and informal telework
      participation when the automated People Time system is implemented. We
      suggest that OASAM generate both Departmental and individual agency reports,
      to be distributed to each agency and program head.

   2. Request that each DOL agency assess its effectiveness in promoting, considering,
      and granting telework requests. As needed, interface with agencies to assist them
      in developing and implementing strategies to promote the Department’s telework
      program and eliminate identified barriers to the program.




                                          13
                 OASAM’S RESPONSE AND OIG’S ONCLUSIONS

OASAM’s Response

“On the whole, the report is fair and balanced. You have presented the program from a
positive viewpoint with suggestions that we find worthwhile.”

In response to the specific OIG recommendations, OASAM agrees to the following:

   •   “Within the limits of the new automated time and attendance system (People
       Time) when it is fully implemented, OASAM will: Begin routine tracking and
       internal reporting of formal and informal telework participation. OASAM will
       generate Departmental and individual agency reports.”

   •   “Request that each DOL agency assess its effectiveness in promoting,
       considering, and granting telework requests. As needed, we will interface with
       agencies to assist them in developing and implementing strategies to promote the
       Department’s telework programs and eliminate barriers to the program.”

OASAM also offered two points of clarification, which are incorporated in this report.

OIG’s Conclusion

We consider these recommendations resolved. The recommendations will be closed
upon receipt of the following information by January 31, 2003:

   •   A copy of the first Departmental telework report that is generated from the newly
       automated time and attendance system.

   •   A copy of the memorandum to DOL agencies requesting their assessment of the
       telework program.




                                           14
        APPENDIX A

 OPM REPORT ON TELEWORK AS
REPORTED ON THE OPM WEBSITE
        OCTOBER 2001




            15
                          TELEWORK IN THE FEDERAL GOVERNMENT

                                                       TOTAL      ELIGIBLE               ELIGIBLE PERCENT
                      AGENCY                         EMPLOYEES EMPLOYEES TELEWORKERS PERCENT OF TOTAL
Agency for International Development                       2122        1430        43       3.01%    2.03%
Agriculture (USDA)                                       110546       34085      1847       5.42%    1.67%
Broadcasting Board of Governors                            1857        1857        22       1.18%    1.18%
Commerce                                                  39419                  6494               16.47%
Defense (DOD)                                            679194       21914      11111     50.70%    1.64%
Education                                                  4872        4872      1075      22.06%   22.06%
Energy                                                    14983                  1137                7.59%
Environmental Protection Agency (EPA)                     17886       17059      3868      22.67%   21.63%
Equal Employment Opportunity Commission (EEOC)             2886        1669       599      35.89%   20.76%
Federal Communications Commission (FCC)                    1994        1994       422      21.16%   21.16%
Federal Deposit Insurance Corporation                      6297                  1019               16.18%
Federal Emergency Management Agency (FEMA)                 8406        2894       130       4.49%    1.55%
Federal Energy Regulatory Commission (FERC)                1186        1133       283      24.98%   23.86%
Federal Reserve System                                     1700        1650        21       1.27%    1.24%
Federal Trade Commission (FTC)                             1049              6      6     100.00%    0.57%
General Services Administration (GSA)                     14265       12149      2579      21.23%   18.08%
Health & Human Services (HHS)                             64343       64343      4924       7.65%    7.65%
Housing & Urban Development (HUD)                         10600        9400       553       5.88%    5.22%
Interior                                                  73568       46887      4680       9.98%    6.36%
Justice (DOJ)                                            125000       80000      1442       1.80%    1.15%
Labor (DOL)                                               16477       16477      1563       9.49%    9.49%
National Aeronautics & Space Administration (NASA)        18171        6253       732      11.71%    4.03%
National Archives & Records Administration                 3059        1500        38       2.53%    1.24%




                                                           16
                                                      TOTAL      ELIGIBLE              ELIGIBLE PERCENT
                          AGENCY                    EMPLOYEES EMPLOYEES TELEWORKERS PERCENT OF TOTAL
National Credit Union Administration                      1007        1007       745     73.98%   73.98%
National Labor Relations Board (NLRB)                     2034         975       352     36.10%   17.31%
National Gallery of Art                                   1100         300         4      1.33%    0.36%
National Science Foundation (NSF)                         1359        1359       151     11.11%   11.11%
Nuclear Regulatory Commission (NRC)                       2826        2826        35      1.24%    1.24%
Office of Personnel Management (OPM)                      3576        3576      1379     38.56%   38.56%
Patent & Trademark Office (USPTO)                         6549         778       653     83.93%    9.97%
Railroad Retirement Board                                 1177         197        65     32.99%    5.52%
Securities & Exchange Commission (SEC)                    3066        3066        85      2.77%    2.77%
Small Business Administration (SBA)                       4302                   138               3.21%
Social Security Administration (SSA)                     65595       10212      2581     25.27%    3.93%
State                                                    20197       20197       189      0.94%    0.94%
Transportation (DOT)                                     55607       28002      1738      6.21%    3.13%
Treasury                                                151000      113000     19845     17.56%   13.14%
Veterans Affairs (VA)                                   220000        3700       930     25.14%    0.42%
Other Smaller Agencies (less than 1000 employees)         6800        4775      1009     21.13%   14.84%
                          Totals                       1766075      521542     74487     14.28%    4.22%




                                                          17
        APPENDIX B

  DOL’S RESPONSE TO THE
OPM SURVEY ON ESTABLISHING
    TELEWORK POLICIES
        APRIL 2001




           18
        APPENDIX C

  DOL’S RESPONSE TO THE
OPM SURVEY ON ESTABLISHING
    TELEWORK POLICIES
       OCTOBER 2001




           22
  APPENDIX D

AGENCY RESPONSE




    1
